Counsel for Respondents
Hermann D. Bauer-Alvarez
O'Neill & Borges LLC
250 Munoz Rivera Ave
Ste 800
San Juan, PR 00918-1813
787-282-5723
hermann.bauer@oneillborges.com
Party Name: Financial Oversight and Management Board, Commonwealth of Puerto Rico and
Natalie A. Jaresko
Peter W. Miller
Weinstein-Bacal Miller & Vega PSC
Gonzalez-Padin Bldg PH-1
154 Rafael Cordero St
Plaza de Armas, Old San Juan
San Juan, PR 00901
787-617-5258
pwm@wbmvlaw.com
Party Name: State Insurance Fund Corporation and Javier Rivera Rios, in his official capacity as
Administrator of the State Insurance Fund Corporation
Luis C. Marini-Biaggi
Marini Pietrantoni Muniz LLC
250 Ponce de Leon Ave
Ste 900
San Juan, PR 00918
787-705-2171
lmarini@mpmlawpr.com
Party Name: Christian Sobrino Vega; Jose Ivan Marrero-Rosado; Teresita Fuentes; Wanda
Vazquez-Garced, in her official capacity as Governor; and Francisco Pares Alicea, in his official
capacity as Secretary of Treasury
Peter M. Friedman
O'Melveny & Myers LLP
7 Times Sq
New York, NY 10036-0000
202-383-5302
pfriedman@omm.com
Party Name: Omar J. Marrero-Diaz, in his official capacity as Executive Director of AAFAF

